   Fiscal Year 2011 Postal Service
     Financial Statements Audit –
  Eagan Information Technology and
      Accounting Service Center

                    Audit Report




                                   December 19, 2011

Report Number FT-AR-12-007
                                                                     December 19, 2011

                                             Fiscal Year 2011 Postal Service Financial
                                                Statements Audit – Eagan Information
                                                 Technology and Accounting Service
                                                                               Center

                                                          Report Number FT-AR-12-007


IMPACT ON:                                       transactions at the Eagan IT/ASC are
Financial reporting at the Eagan, MN,            fairly stated in accordance with
Information Technology and Accounting            accounting principles generally
Service Center (IT/ASC) for the fiscal           accepted in the U.S.; general ledger
year ended September 30, 2011.                   account balances conform with the
                                                 general classification of accounts on a
WHY THE OIG DID THE AUDIT:                       basis consistent with the previous year;
Our objectives were to determine                 and the Postal Service complied with
whether:                                         laws and regulations relating to the
                                                 Eagan IT/ASC and having a direct and
 Financial accounting policies and              material effect on the financial
  procedures provide for an adequate             statements. We did not propose
  internal control structure and comply          adjustments or identify issues that were
  with accounting principles generally           material to the financial statements or
  accepted in the U.S.                           that would affect the overall adequacy of
                                                 internal controls. However, we
 Accounting transactions at the Eagan           determined management could improve
  IT/ASC are fairly stated in accordance         the methodology for estimating the
  with accounting principles generally           Postal Service’s unemployment
  accepted in the U.S.                           compensation liability accrual. As a
                                                 result of our audit, management
 General ledger account balances                reduced the accrual by $28.8 million.
  conform to the general classification of
  accounts on a basis consistent with            WHAT THE OIG RECOMMENDED:
  that of the previous year.                     We are not making recommendations
                                                 because management took corrective
 The U.S. Postal Service complies with          action to improve their methodology of
  laws and regulations that have a direct        estimating the unemployment
  and material effect on the financial           compensation liability accrual.
  statements as a whole.
                                                 WHAT MANAGEMENT SAID:
WHAT THE OIG FOUND:                              We provided a draft of this report to
Financial accounting policies and                management on December 12, 2011,
procedures provide for an adequate               and because we made no
internal control structure and comply            recommendations, management chose
with accounting principles generally             not to respond formally.
accepted in the U.S.; accounting
                                                 Link to review the entire report
December 19, 2011

MEMORANDUM FOR:           TIMOTHY F. O’REILLY
                          VICE PRESIDENT, CONTROLLER




FROM:                     John E. Cihota
                          Deputy Assistant Inspector General
                           for Financial Accountability

SUBJECT:                  Audit Report – Fiscal Year 2011 Postal Service Financial
                          Statements Audit – Eagan Information Technology and
                          Accounting Service Center
                          (Report Number FT-AR-12-007)

This report presents the results of our audit of the selected financial activities and
accounting records at the U.S. Postal Service Eagan, MN, Information Technology and
Accounting Service Center for the fiscal year ended September 30, 2011 (Project
Number 11BM003FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Julie S. Moore
    Jean D. Parris
    Dean R. Rodman
    Corporate Audit and Response Management
Fiscal Year 2011 Financial Statements Audit – Eagan                                                                     FT-AR-12-007
 Information Technology and Accounting Service Center


                                                 TABLE OF CONTENTS

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Unemployment Compensation Accrual .............................................................................. 2

Recommendation ................................................................................................................ 3

Appendix A: Additional Information..................................................................................... 4

   Background ...................................................................................................................... 4

   Objectives, Scope, and Methodology ............................................................................. 4

   Prior Audit Coverage ....................................................................................................... 6

Appendix B: Monetary Impacts ........................................................................................... 7
Fiscal Year 2011 Financial Statements Audit – Eagan                                       FT-AR-12-007
 Information Technology and Accounting Service Center


Introduction

This report presents the results of our audit of the selected financial activities and
accounting records at the U.S. Postal Service Eagan, MN, Information Technology and
Accounting Service Center (IT/ASC) for the fiscal year (FY) ended September 30, 2011
(Project Number 11BM003FT000). We conducted this audit in support of the
independent public accounting firm’s (IPA) overall audit opinions on the Postal Service’s
financial statements and internal controls over financial reporting. 1 This audit addresses
financial risk. See Appendix A for additional information about this audit.

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. Also, the U.S. Congress enacted Sarbanes-Oxley
(SOX) legislation in calendar year 2002 to strengthen public confidence in the accuracy
and reliability of financial reporting. Section 404 of SOX requires management to state
its responsibility for establishing and maintaining an adequate internal control structure
and make an assertion on the effectiveness of the internal control structure over
financial reporting. The Postal Accountability and Enhancement Act of 2006 requires the
Postal Service to comply with Section 404 of SOX. The Board of Governors (Board)
contracted with the IPA to express opinions on the Postal Service’s financial statements
and internal controls over financial reporting.

Conclusion

During our audit of the Eagan IT/ASC we noted:

       Financial accounting policies and procedures of the Postal Service provide for an
        adequate internal control structure 2 and comply with accounting principles
        generally accepted in the U.S.

       Accounting transactions at the Eagan, MN, IT/ASC impacting the general ledger
        account balances for assets, liabilities, equity, income, and expenses of the
        Postal Service are fairly stated in accordance with accounting principles
        generally accepted in the U.S.

       General ledger account balances conform with the general classification of
        accounts of the Postal Service on a basis consistent with that of the previous
        year.




1
  The IPA maintains overall responsibility for testing and reviewing significant Eagan IT/ASC accounts and
processes.The U.S. Postal Service Office of Inspector General (OIG) coordinated audit work with the IPA to ensure
adequate coverage.
2
  To ensure key controls are properly designed and operationally effective.
                                                             1
Fiscal Year 2011 Financial Statements Audit – Eagan                                                  FT-AR-12-007
 Information Technology and Accounting Service Center



       The Postal Service is in compliance with laws and regulations relating to the
        Eagan, MN, IT/ASC and having a direct and material effect on the financial
        statements as a whole. 3

We did not propose any adjustments or identify any issues that were material to the
financial statements or that would affect the overall adequacy of internal controls.
However, we identified an issue regarding management’s methodology for estimating
the Postal Service’s unemployment compensation liability accrual.

Unemployment Compensation Accrual

Management could improve the methodology for estimating the unemployment
compensation liability accrual. Management’s estimate included, among other
assumptions:

       Benefits the Department of Labor (DOL) already paid to eligible Postal Service
        claimants for the previous quarter (13 weeks) but not yet billed.

       Total maximum potential liability for future unemployment benefits.

The Postal Service participates in the Unemployment Compensation for Federal
Employees (UCFE) program which entitles eligible claimants 4 up to 26 weeks of
unemployment compensation. 5 The Federal–State Extended Benefit Program also
provides additional weeks, depending on state law. 6 The DOL administers the UCFE
program and bills the Postal Service quarterly for payments made on behalf of eligible
Postal Service employees. Since the billing for each quarter does not occur until after
completion of that period, management appropriately accrues for the amounts not yet
billed. However, management adds the estimated total maximum potential liability for
future unemployment benefits to calculate the total accrual amount. Accounting
standards 7 state that an accrual should only be made for probable expenses that can be
reasonably estimated. We do not believe it is probable that all claimants will receive the
maximum potential liability because as of September 30, 2011, some eligible claimants
may have already exhausted a portion of their benefits. As such, we believe the
methodology for calculating the total maximum liability component could be improved.




3
  In our report Fiscal Year 2011 Postal Service Financial Statements Audit – Washington, D.C., Headquarters (Report
Number FT-AR-12-005, dated December 12, 2011), we noted the Postal Service had one instance of noncompliance
related to the suspension of the employer Federal Employees Retirement System obligation.
4
  The Postal Service pays unemployment compensation for eligible former employees and employees because their
hours have been reduced below applicable state thresholds.
5
  Public Law 94-566, 90 Statute 2667, 5 U.S.C. 8501-8509, provides for a permanent program of unemployment
compensation. Most states provide 26 weeks of benefits.
6
  The American Recovery & Reinvestment Act of 2009 establishes from 13 to 20 weeks of extended benefits,
depending on state law. These benefits will continue through January 4, 2012.
7
  Financial Accounting Standards Board, Accounting Standards Codification 710 and 712.

                                                         2
Fiscal Year 2011 Financial Statements Audit – Eagan                        FT-AR-12-007
 Information Technology and Accounting Service Center


Recommendation

As a result of our audit, management reduced the liability by $28.8 million. Because
management reduced the unemployment compensation liability accrual, we are not
making a recommendation at this time. However, we will continue to monitor the accrual
as part of our future annual financial statements audit work. See Appendix B for our
calculation of monetary impact. Since we did not make a recommendation,
management chose not to respond formally to this report.




                                                  3
Fiscal Year 2011 Financial Statements Audit – Eagan                                                   FT-AR-12-007
 Information Technology and Accounting Service Center


                                 Appendix A: Additional Information

Background

The Eagan IT/ASC is one of three ASCs Postal Service-wide 8 and functions as a large,
centralized accounting and disbursement center. Its employees are responsible for
processing payroll, maintaining the general ledger, reconciling financial data, and
maintaining cash and receivable accounts.

We issued a separate financial statements audit report for headquarters and will issue a
separate report for the St. Louis and San Mateo IT/ASCs. Further, in addition to the
overall opinions on the Postal Service’s financial statements and internal controls over
financial reporting, the Board’s IPA issued a separate report on its consideration of the
Postal Service’s internal controls and its test of compliance with certain provisions of
laws, regulations, contracts, and other matters. The purpose of that report was to
describe the scope of testing of internal controls over financial reporting and compliance
and the results of that testing, not to provide an opinion on internal controls over
financial reporting or on compliance. 9 The OIG will also issue a separate report for the
audit of the FY 2011 information system controls at the Eagan, San Mateo, and
St. Louis IT/ASCs; and the Raleigh Information Technology Service Center.

Objectives, Scope, and Methodology

The objectives of the audit were to determine whether: 10
       Financial accounting policies and procedures of the Postal Service provide for an
        adequate internal control structure 11 and comply with accounting principles
        generally accepted in the U.S.

       Accounting transactions at the Eagan IT/ASC that impact the general ledger
        account balances for assets, liabilities, equity, income, and expenses of the
        Postal Service are fairly stated in accordance with accounting principles
        generally accepted in the U.S.

       General ledger account balances conform to the general classification of
        accounts of the Postal Service on a basis consistent with that of the previous
        year.

        The Postal Service complies with laws and regulations that have a direct and
         material effect on the financial statements taken as a whole.


8
  Other IT/ASCs are located in St. Louis, MO, and San Mateo, CA.
9
  In addition to the IPA’s work, these reports encompass work the OIG performed at headquarters, the three
IT/ASCs, field sites, and the Raleigh, NC, Information Technology Service Center.
10
   The IPA maintains overall responsibility for testing and reviewing significant Eagan IT/ASC accounts and
processes. The OIG coordinated audit work with the IPA to ensure adequate coverage.
11
   To ensure key controls are properly designed and operationally effective.

                                                         4
Fiscal Year 2011 Financial Statements Audit – Eagan                                 FT-AR-12-007
 Information Technology and Accounting Service Center



As part of our audit, we assessed internal controls, tested transactions, and verified
account balances. We conducted this audit from November 2010 through
December 2011 12 in accordance with the standards of the Public Company Accounting
Oversight Board (United States) (PCAOB) and the standards applicable to financial
audits contained in the Government Auditing Standards issued by the comptroller
general of the U.S. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to limit audit risk to a low level that is, in our
professional judgment, appropriate for supporting the overall audit opinion on financial
statements. Those standards also require considering the results of previous
engagements and following up on known significant findings and recommendations that
directly relate to the objectives of the audit. An audit also requires a sufficient
understanding of internal controls to plan the audit and determine the nature, timing,
and extent of audit procedures to be performed. We believe the evidence obtained
provides a reasonable basis for our conclusion based on our audit objectives.

We supported the IPA in obtaining reasonable assurance about whether the financial
statements were free of material misstatements (whether caused by error or fraud).
Absolute assurance is not attainable because of the nature of audit evidence and the
characteristics of fraud. Therefore, an audit conducted in accordance with the PCAOB
and Government Auditing Standards may not detect a material misstatement. However,
external auditors and the OIG are responsible for ensuring that appropriate Postal
Service officials are aware of any significant deficiencies that come to our attention. We
provided a draft of this report to management on December 12, 2011, and because we
did not make any recommendations, management chose not to respond formally.

We relied on computer-generated data from a number of Postal Service financial
systems, including:

          Accounting Enterprise Data Warehouse Reporting.
          National Accounting Oracle Financial Application.
          Accounts Receivable-Oracle.
          Commercial Check Tracking System.
          Payroll Systems.
          SAP Human Capital Management.
          Employee Personnel Action History.
          PostalEASE.

To assess the reliability of these systems’ data, we performed specific internal control
and transactions tests, including tracing selected financial information to supporting
source records. For example, we traced payroll system reports to original Notification of
Personnel Action documentation. We determined that the data were sufficiently reliable
for the purposes of this report.



12
     The scope of our audit was from October 1, 2010, through September 30, 2011.

                                                          5
Fiscal Year 2011 Financial Statements Audit – Eagan                                      FT-AR-12-007
 Information Technology and Accounting Service Center


Prior Audit Coverage

                                              Final
                            Report           Report
     Report Title           Number            Date               Report Results
  Fiscal Year 2010       FT-AR-11-005      12/30/2010   We did not propose any
  Postal Service                                        adjustments or report any
  Financial Statements                                  significant issues, and did not
  Audit – Eagan                                         make any recommendations.
  Information                                           Management took corrective action
  Technology and                                        during our audit to update the
  Accounting Service                                    certifying officer list and implement
  Center                                                additional controls to prevent
                                                        improper certification of payments.
                                                        Management also took action to
                                                        correct the formula in the Time and
                                                        Attendance System Close Out
                                                        Report.
  Fiscal Year 2009       FT-AR-10-004      11/20/2009   We did not propose any
  Postal Service                                        adjustments or report any
  FinancialStatements                                   significant issues and did not make
  Audit – Eagan                                         any recommendations.
  Information                                           Management took corrective action
  Technology and                                        during our audit to document
  Accounting Service                                    evidence when evaluating payroll
  Center                                                processing.
  Fiscal Year 2008       FT-AR-09-002      11/20/2008   We did not propose any
  Postal Service                                        adjustments or report any
  Financial Statements                                  significant issues and did not make
  Audit – Eagan                                         any recommendations.
  Information                                           Management took corrective action
  Technology and                                        during our audit regarding Federal
  Accounting Service                                    Employees’ Retirement System
  Center                                                Contribution Rates.




                                                  6
Fiscal Year 2011 Financial Statements Audit – Eagan                                                   FT-AR-12-007
 Information Technology and Accounting Service Center


                                    Appendix B: Monetary Impacts

                Finding                       Impact Category                            Amount
            Unemployment                Unsupported Questioned Cost 13                  $28,758,859
            compensation
            accrual

Management initially calculated the liability amount at $94,758,859 which included the
maximum potential liability for each eligible claimant. They revised the estimate to
$66,000,000 to reflect a reduced number of weeks each eligible claimant would be
entitled to, for a difference of $28,758,859.




13
  A weaker claim and a subset of questioned costs. Claimed because of failure to follow policy or required
procedures, but does not necessarily connote any real damage to Postal Service.

                                                          7
